IN THE SUPREME COURT OF THE UNITED STATES

October Term 2020
LEOBARDO BARRAZA, )
)
Petitioner, ) On Petition for Writ of
)  Certiorari to the United
vs. ) States Court of Appeals
) for the Eighth Circuit
UNITED STATES OF AMERICA, )
) Supreme Court Case No.
Respondent. )

PROOF OF SERVICE
STATE OF MISSOURI )
CITY OF ST. LOUIS

The undersigned, being duly sworn and upon her oath, states as follows:

1. Tam counsel of record for Petitioner;

2. On this 16th day of July 2021, I served copies of the Petitioner’s
Petition for a Writ of Certiorari plus its Appendix, Motion to Proceed In Forma
Pauperis, Entry of Appearance, Affidavit of Filing, plus this Proof of Service, on
each party to the above proceeding or that party’s counsel, on every other person
required to be served, by depositing an envelope containing copies thereof with a
third-party commercial carrier for delivery within three days to:

Acting Solicitor General Elizabeth Prelogar.
US. Department of Justice, Room 5614
950 Pennsylvania Avenue, NW

Washington, DC 20530-0001
(202) 514-2203
and by delivering a copy of those documents by hand to:

Angie I. Danis, Acting United States Attorney
For the Eastern District of Missouri

Eagleton Federal Courthouse

111 South Tenth Street, 20" Floor

Saint Louis, MO 63102

I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 16, 2021.

3. Further affiant sayeth not.

Respectfully submitted,

lle pie (ferns
EVIN C. CURRAN

Assistant Federal Public Defender
1010 Market, Suite 200

St. Louis, MO. 63101

(314) 241-1255

Fax: (314) 421-3177

ATTORNEY FOR PETITIONER

SUBSCRIBED AND SWORN TO before me on this il ih day of July 2021.

NOTARY ut

My commission expires:

 
